No.

 

IN THE SUPREME COURT OF THE UNITED STATES

 

S.J, mother of A.C. and A.W., each a minor child,
Petitioner,
v.
DEPARTMENT OF CHILDREN AND FAMILIES,

Respondent.

 

On Petition for a Writ of Certiorari to
the Supreme Court of the State of Florida

 

RULE 29 PROOF OF SERVICE

 

ROBERT J. SLAMA

Counsel of Record

ROBERT J. SLAMA, P.A.

6817 Southpoint Parkway, Suite 2504
Jacksonville, Florida 32216

Tel: (904) 296-1050

Fax:(904) 296-1844

Email: support@RobertJSlamaPA.com

Counsel for the Petitioner

 
PROOF OF SERVICE

 

I HEREBY CERTIFY that the Motion for Leave to Proceed in Forma
Pauperis and Petition for Writ of Certiorari in the above proceeding, has been
served as required by Supreme Court Rule 29, on each party to the proceeding or
that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a
third-party commercial carrier for delivery within 3 calendar days.

 

Mr. WARD L. METZGER, ESQUIRE

DEPARTMENT OF CHILDREN AND FAMILY SERVICES
325 John Knox Road

Tallahassee, FL 32302-4113

ASHLEY MOODY, ATTORNEY GENERAL
STATE OF FLORIDA

PL-01

TALLAHASSEE, FLORIDA 32399-1050
